  Federal Communications Commission
       Office of Inspector General




FY 2004 Federal Information Security Management Act
          (FISMA) Independent Evaluation


                    October 6, 2004
                  TABLE OF CONTENTS

                                                           Page


SUMMARY                                                      2

APPENDIX A   OIG Responses to OMB Memorandum M-04-25       A-1
             Federal Information Security Management Act
             (FISMA) Reporting Questions

APPENDIX B   FY 2004 FISMA Independent Evaluation and      B-1
             Risk Assessment (Audit Report No.
             04-AUD-06-08)

APPENDIX C   FY 2003 Audit of Revenue Accounting &         C-1
             Management Information System (RAMIS)
             Application Controls (Audit Report No.
             03-AUD-01-01)

APPENDIX D   FY 2003 FISMA Independent Evaluation and      D-1
             Risk Assessment (Audit Report No.
             03-AUD-06-09)

APPENDIX E   FY 2004 Disaster Recovery Plan Survey         E-1
             (Audit Report No. 03-AUD-12-27).




                                                                  1
                              Summary
The Federal Information Security Management Act (‘FISMA’ or ‘the Act’) was signed into law
on December 17, 2002 as Title III, “Information Security,” of the E-Government Act of 2002.
The Act permanently re-authorizes the framework established by the Government Information
Security Reform Act (GISRA), which expired in November 2002.

FISMA requires all federal agency heads to transmit to the Office of Management and Budget
(OMB) an annual agency report consisting of separate components prepared by the agency Chief
Information Officer (CIO) and the Office of Inspector General (IG). A key provision of the Act
also requires that the agency IG, or independent evaluators designated by the IG, perform an
annual independent evaluation of the agency’s information security program and practices. For
fiscal year (FY) 2004, the Federal Communications Commission’s (“Commission” or “FCC”) IG
engaged KPMG, LLP to conduct its independent evaluation.

The overall objective of the FISMA independent evaluation was to evaluate the effectiveness of
the Commission’s information security program. Generally, we found the Commission’s
information technology security to be effective. We used the National Institute of Standards and
Technology (NIST) “Self-Assessment Guide for Information Technology Systems (Self-
Assessment Guide 800-26)” as a basis for our methodology to assess the risk for each component
of the FCC’s program. As applicable, additional guidance was received from methodology
provided in the Federal Information Systems Control Audit Manual (FISCAM), as well as other
laws and directives related to management and protection of Federal information resources.

OMB Memoranda M-04-25 dated August 23, 2004 entitled, “FY 2004 Reporting Instructions for
the Federal Information Security Management Act” was followed to perform and report the
results of our independent evaluation. Appendix A provides the IG’s responses to OMB’s
questions that address high-level performance measures of the FCC’s information security
program and practices. Appendix B provides the final report for our FY 2004 FISMA
Independent Evaluation and Risk Assessment (Audit Report No. 04-AUD-06-08).

FISMA also requires that IGs select an appropriate subset of business applications for
independent review. The results of our FY 2003 Audit of Revenue Accounting and Management
Information System (RAMIS) Application Controls (Audit Report No. 03-AUD-01-01), included
as Appendix C, satisfies this requirement. Appendix D is the report on the FY 2003 FISMA
Independent Evaluation and Risk Assessment (Audit Report No. 03-AUD-06-09). Appendix E
forwards the final memo on our Disaster Recovery Plan Survey (Audit Report No. 03-AUD-12-
27).




                                                                                              2
                    APPENDIX A




FY 2004 Federal Information Security Management Act
          (FISMA) Independent Evaluation




Federal Communications Commission - Office of Inspector General

 Responses to OMB Memorandum M-04-25 FY 2004 FISMA
                  Reporting Questions
                             2004 FISMA Report
Agency:                        Federal Communications Commission


Date Submitted:        10/6/2004

Submitted By:          OIG

Contact Information:
           Name:       Walker Feaster
           E-mail:     walker.feaster@fcc.gov
           Phone:      (202) 418-0476
Section A: System Inventory and IT Security Performance
NOTE: ALL of Section A should be completed by BOTH the Agency CIO and the OIG.



   A.1. By bureau (or major agency operating component), identify the total number of programs and systems in the agency and the total number of contractor operations or facilities. The agency CIOs
   and IG's shall each identify the total number that they reviewed as part of this evaluation in FY04. NIST 800-26, is to be used as guidance for these reviews.




   A.2. For each part of this question, identify actual performance in FY04 for the total number of systems by bureau (or major agency operating component) in the format provided below.


                                                                   A.1                                                                                        A.2

                                          A.1.a.               A.1.b.               A.1.c.                A.2.a.                  A.2.b.                 A.2.c.                   A.2.d.                A.2.e.

                                    FY04 Programs          FY04 Systems        FY04 Contractor          Number of               Number of               Number of      Number of systems     Number of
                                                                                Operations or        systems certified        systems with          systems for which with a contingency systems for which
                                                                                  Facilities          and accredited         security control        security controls        plan       contingency plans
                                                                                                                             costs integrated        have been tested                     have been tested
                                                                                                                            into the life cycle      and evaluated in
                                                                                                                              of the system            the last year



                                    Total  Number          Total     Number   Total       Number      Total   Percent of     Total    Percent of     Total      Percent of    Total   Percent of    Total Percent of
         Bureau Name               Number Reviewed        Number    Reviewed Number      Reviewed    Number     Total       Number      Total       Number        Total      Number     Total      Number   Total
  Federal Communications
  Commission                              1           1       19          19         5           0       19        100.0%        19        100.0%        19         100.0%        6        31.6%         6       31.6%
Agency Total                              1          1        19         19         5           0        19     100.0%          19      100.0%          19          100.0%        6        31.6%        6        31.6%

Comments:
A.1.c - The total number of contractor operations or facilities in FY 2004 is based on external contract entities that process FCC data at an offsite location. This total includes Digital Systems Group,
Mellon Bank, JP Morgan/Chase Bank, The National Finance Center, and The National Business Center.

A.2.d - The total number of systems with a contingency plan in FY 2004 includes the FCCNET network environment, the Access Control System, as well as the Commission's internal supporting
infrastructure for FFS and FPPS, which is identified in the FCC Information Technology Disaster Recover Plan. Also included within this total is the Wireless Telecommunication Bureau Auctions
Network and Automated Auctions System, which are noted in the Auction Continuity of Operations Plan.
                                                                                                     A.3


   A.3. Evaluate the degree to which the following statements reflect the status in your agency, by choosing from the responses provided in the drop down menu. If appropriate or necessary, include
   comments in the Comment area provided below.


                                                                Statement                                                                                         Evaluation


        a. Agency program officials and the agency CIO have used appropriate methods to ensure that contractor provided services or
        services provided by another agency for their program and systems are adequately secure and meet the requirements of                         Almost Always, or 96-100% of the time
        FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.


        b. The reviews of programs, systems, and contractor operations or facilities, identified above, were conducted using the NIST
                                                                                                                                                          Mostly, or 81-95% of the time
        self-assessment guide, 800-26.



        c. In instances where the NIST self-assessment guide was not used to conduct reviews, the alternative methodology used
                                                                                                                                                          Rarely, or 0-50% of the time
        addressed all elements of the NIST guide.



        d. The agency maintains an inventory of major IT systems and this inventory is updated at least annually.                                    Almost Always, or 96-100% of the time



        e. The OIG was included in the development and verification of the agency’s IT system inventory.                                             Almost Always, or 96-100% of the time



        f. The OIG and the CIO agree on the total number of programs, systems, and contractor operations or facilities.                              Almost Always, or 96-100% of the time


        g. The agency CIO reviews and concurs with the major IT investment decisions of bureaus (or major operating components)
                                                                                                                                                     Almost Always, or 96-100% of the time
        within the agency.

                                                                Statement                                                                                          Yes or No


        h. The agency has begun to assess systems for e-authentication risk.                                                                                          Yes


        i. The agency has appointed a senior agency information security officer that reports directly to the CIO.                                                    Yes


Comments:
Item A - Each agency or contractor that provides a service to the Commission is required, by contract, to follow the guidance outlined by FCC Directive FCCINST 1479.2 and to review and
sign a copy of the FCC Rules of Behavior. These documents establish security requirements for all FCC systems.

Item B - Onsite reviews of three of the contractor facilities that house FCC major application where not performed during FY 2004.

Item C - The Computer Security Program did not use any methodology other than the NIST self-assessment guide to conduct reviews during the fiscal year.
Section B: Identification of Significant Deficiencies
NOTE: ALL of Section B should be completed by BOTH the Agency CIO and the OIG.


   B.1. By bureau, identify all FY 04 significant deficiencies in policies, procedures, or practices required to be reported under existing law. Describe each on a separate row,
   and identify which are repeated from FY03. In addition, for each significant deficiency, indicate whether a POA&M has been developed. Insert rows as needed.


                                                                                      B.1.
                                                                                              FY04 Significant Deficiencies




                                                         Total Number                                                                                              POA&M
                                               Total       Repeated                                                                                              developed?
             Bureau Name                      Number      from FY03                      Identify and Describe Each Significant Deficiency                        Yes or No


                                                                         1. Compliance with OMB Circular No. A-130 Requirements for a
Federal Communications Commission                2              2        Comprehensive Security Plan (Modified Repeat Condition)                               Yes
                                                                         2. Accelerate Efforts to Develop and Test FCC's Contigency Plans (Modified
                                                                         Repeat Condition).                                                         Yes
Agency Total                                     2              2

Comments:
Section C: OIG Assessment of the POA&M Process
NOTE: Section C should *ONLY* be completed by the OIG. The CIO should leave this section blank.

   C.1. Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency-wide plan of
   action and milestone (POA&M) process. This question is for IGs only. Evaluate the degree to which the following statements reflect the status in your agency by
   choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the Comment area provided below.

                                                                                  C.1
                                                 Statement                                                                       Evaluation

        a. Known IT security weaknesses, from all components, are incorporated into the POA&M.                Almost Always, or 96-100% of the time

        b. Program officials develop, implement, and manage POA&Ms for systems they own and
                                                                                                              Almost Always, or 96-100% of the time
        operate (systems that support their program or programs) that have an IT security weakness.

        c. Program officials report to the CIO on a regular basis (at least quarterly) on their remediation
                                                                                                              Almost Always, or 96-100% of the time
        progress.

        d. CIO develops, implements, and manages POA&Ms for every system they own and operate (a
                                                                                                              Almost Always, or 96-100% of the time
        system that supports their program or programs) that has an IT security weakness.

        e. CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.       Almost Always, or 96-100% of the time

        f. The POA&M is the authoritative agency and IG management tool to identify and monitor agency
                                                                                                              Almost Always, or 96-100% of the time
        actions for correcting information and IT security weaknesses.
        g. System-level POA&Ms are tied directly to the system budget request through the IT business
                                                                                                              Almost Always, or 96-100% of the time
        case as required in OMB budget guidance (Circular A-11).

        h. OIG has access to POA&Ms as requested.                                                             Almost Always, or 96-100% of the time

        i. OIG findings are incorporated into the POA&M process.                                              Almost Always, or 96-100% of the time

        j. POA&M process prioritizes IT security weaknesses to help ensure that significant IT security
                                                                                                              Rarely, or 0-50% of the time
        weaknesses are addressed in a timely manner and receive appropriate resources.


Comments:

Regarding Item J - Agency POA&Ms are not being prioritized to identify significant IT security weaknesses.
C.1 OIG Assessment of the Certification and Accreditation Process
Section C should only be completed by the OIG. OMB is requesting IGs to assess the agency’s certification and accreditation process in
order to provide a qualitative assessment of this critical activity. This assessment should consider the quality of the Agency’s certification and
accreditation process. Any new certification and accreditation work initiated after completion of NIST Special Publication 800-37 should be
consistent with NIST Special Publication 800-37. This includes use of the FIPS 199, “Standards for Security Categorization of Federal
Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing
risk assessments and security plans. Earlier NIST guidance is applicable to any certification and accreditation work completed or initiated
before finalization of NIST Special Publication 800-37. Agencies were not expected to use NIST Special Publication 800-37 as guidance
before it became final.


                                    Statement                                                                  Evaluation
     Assess the overall quality of the Agency's certification and accreditation
     process.

     Comments: The FCC’s Information Technology Center’s Computer Security
     Program (CSP) uses the guidance provided in NIST Special Publication 800-37
     as the primary basis for its certification and accreditation methodology. The
     methodology also incorporates NIST Special Publication 800-26 for additional
     guidance. Prior to the final release of NIST Special Publication 800-37, the
     CSP was utilizing NIST Special Publication 800-26, FIPS 199, as well as the
     draft NIST Special Publication 800-37 for guidance in the FCC certification and
     accreditation process.                                                                Excellent

     At the close of FY 2004, all of the FCC’s major applications and general
     support systems had been certified to operate on the network. To date, five (5)
     of the FCC’s nineteen (19) major applications and general support systems,
     including the Equipment Authorization System, the Experimental Licensing
     Systems, and the Universal Licensing System have been certified to operate
     using the finalized NIST Special Publication 800-37.
We reviewed all C&A packages during our FISMA independent evaluation and
risk assessment. We noted that the FCC’s process relies on a relatively high
level of technical expertise to test system controls and ensure that risks posed
by major applications and or general support systems are identified and
properly mitigated. To ensure that risks are adequately identified, the process
includes security testing consisting of vulnerability assessments and
penetration tests. During security testing, the CSP used various automated
tools to identify security weaknesses. This testing yielded a number of
significant technical issues including those associated with patch management,
operating system configuration, and database audit settings. We noted that all
findings were properly communicated to system owners and either resolved
during the certification and accreditation process or, depending of the level of
risk associated, agreed to be resolved in the near future. This was evident in
the certification and accreditation statements for the Equipment Authorization
System, the Auctions Network, and the
 International Bureau Filing System.
Section D
NOTE: ALL of Section D should be completed by BOTH the Agency CIO and the OIG.

   D.1. First, answer D.1. If the answer is yes, then proceed. If no, then skip to Section E. For D.1.a-f, identify whether agencywide security configuration
   requirements address each listed application or operating system (Yes, No, or Not Applicable), and then evaluate the degree to which these configurations are
   implemented on applicable systems. For example: If your agency has a total of 200 systems, and 100 of those systems are running Windows 2000, the universe
   for evaluation of degree would be 100 systems. If 61 of those 100 systems follow configuration requirement policies, and the configuration controls are
   implemented, the answer would reflect "yes" and "51-70%". If appropriate or necessary, include comments in the Comment area provided below.


   D.2. Answer Yes or No, and then evaluate the degree to which the configuration requirements address the patching of security vulnerabilities. If appropriate or
   necessary, include comments in the Comment area provided below.

                                                                              D.1. & D.2.                                           D.1.                 D.2.
                                                                                                                                   Yes,
                                                                                                                                  No, or
                                                                                                                                   N/A               Evaluation
D.1. Has the CIO implemented agencywide policies that require detailed specific security configurations and what is the
degree by which the configurations are implemented?

                 a. Windows XP Professional
                                                                                                                                    N/A
                 b. Windows NT
                                                                                                                                    N/A
                                                                                                                                               Almost Always, or 96-100%
                 c. Windows 2000 Professional
                                                                                                                                    Yes        of the time

                 d. Windows 2000
                                                                                                                                    N/A
                                                                                                                                               Almost Always, or 96-100%
                 e. Windows 2000 Server
                                                                                                                                    Yes        of the time

                 f. Windows 2003 Server
                                                                                                                                    N/A
                                                                                                                                               Almost Always, or 96-100%
                 g. Solaris
                                                                                                                                    Yes        of the time

                 h. HP-UX
                                                                                                                                    N/A

                 i. Linux
                                                                                                                                    N/A
                                                                                                                                               Rarely, or 0-50% of the
                 j. Cisco Router IOS
                                                                                                                                    No         time
                                                                                                                                               Rarely, or 0-50% of the
                 k. Oracle
                                                                                                                                    No         time
                                                                                                                                               Rarely, or 0-50% of the
                 l. Other. Specify: Silicon Graphics IRIX                                                                           No         time
                                                                                                                                  Yes or
                                                                                                                                                     Evaluation
                                                                                                                                   No
                                                                                                                                               Almost Always, or 96-100%
        D.2. Do the configuration requirements implemented above in D.1.a-f., address patching of security vulnerabilities?
                                                                                                                                    Yes        of the time

Comments:
Item J - Cisco does not provide patches for the IOS. All vulnerabilities are mitigated and/or corrected via upgrades of the IOS Software
Item I - The Linux operating system is present within the FCC's environment, however its use is limited to application testing purposes.
Item K - The FCC Financial Operations Group also manages an Oracle Data Warehouse that serves as a repository of Federal Financial System (FFS) data. However, this system
is not considered a major application and is not managed under the Office of the Chief Information Officer. As such, it is not included in this listing.
Item K and L - These platforms are managed by an external contractor and are not connected directly to the internal FCC network environment. However, the contractor has not
developed a configuration guide for either the Oracle or IRIX platforms.
Section E: Incident Detection and Handling Procedures
NOTE: ALL of Section E should be completed by BOTH the Agency CIO and the OIG.


  E.1. Evaluate the degree to which the following statements reflect the status at your agency. If appropriate or necessary, include comments in the Comment area provided
  below.

                                                                                        E.1

                                                         Statement                                                                                   Evaluation


                a. The agency follows documented policies and procedures for reporting incidents internally.                         Almost Always, or 96-100% of the time

                b. The agency follows documented policies and procedures for external reporting to law enforcement
                                                                                                                                     Almost Always, or 96-100% of the time
                authorities.
                c. The agency follows defined procedures for reporting to the United States Computer Emergency Readiness
                                                                                                                                     Almost Always, or 96-100% of the time
                Team (US-CERT). http://www.us-cert.gov
                                                                                       E.2.
  E.2. Incident Detection Capabilities.
                                                                                                                                         Number of     Percentage of
                                                                                                                                          Systems      Total Systems
                        a. How many systems underwent vulnerability scans and penetration tests in FY04?                                    11               58%
                        b. Specifically, what tools, techniques, technologies, etc., does the agency use to mitigate IT security risk?
                                 Answer:
                                 The FCC Information Technology Center utilizes various hardware and software based solutions to mitigate IT security risks both
                                 internal and external to the Commission. Cisco PIX and Checkpoint firewalls control and monitor traffic entering and exiting the FCC's
                                 network environment. Also utilized are network segmentation and layering, controlled network routing, host and network-based virus
                                 protection software, system log monitoring and alert monitoring. The FCC ITC also implemented various intrusion detection solutions,
                                 including ISS RealSecure and TripWire. Lastly, the FCC ITC Computer Security Program (CSP) conducts periodic security tests and
                                 evaluations to identify and mitigate risks.


Comments:
Section G: Training
NOTE: ALL of Section G should be completed by BOTH the Agency CIO and the OIG.


   G.1. Has the agency CIO ensured security training and awareness of all employees, including contractors and those employees with significant IT security
   responsibilities? If appropriate or necessary, include comments in the Comment area provided below.
                                                                               G.1.
     G.1.a.                   G.1.b.                    G.1.c.                 G.1.d.                              G.1.e.                              G.1.f.

Total number of Employees that received IT Total number of Employees with significant                 Briefly describe training provided           Total costs for
 employees in security awareness training in employees with security responsibilities that                                                          providing IT
     FY04       FY04, as described in NIST    significant IT received specialized training,                                                      security training in
                Special Publication 800-50       security     as described in NIST Special                                                              FY04
                                             responsibilities Publications 800-50 and 800-                                                            (in $'s)
                                                                           16




                     Number        Percentage                         Number       Percentage

                                                                                                - FCC's Top 10 SANS Vulnerabilities
                                                                                                - IT DRP Overview and Training
                                                                                                - CRC Computer Security (CS) Training
                                                                                                - New Staff CS Orientation Training
     2443             2443             100%               75            40              53%                                                         $159,055.37
                                                                                                - Monthly CS Notices
                                                                                                - CS Alerts and Advisories
                                                                                                - Other Specialized IT Security Training
                                                                                                - Other Ad-hoc Security Briefings
                                                                               G.2.
                                                                             Yes or No
   a. Does the agency explain policies regarding peer-to-peer
   file sharing in IT security awareness training, ethics training,             Yes
   or any other agency wide training?
                                                                   Yes            No
Comments:
The total number of employees in field G.1.a is the sum of the total number of full time employees (2016) and total number of contractors with
network access (427).
Section F: Incident Reporting and Analysis
NOTE: ALL of Section F should be completed by BOTH the Agency CIO and the OIG.

   F.1. For each category of incident listed: identify the total number of successful incidents in FY04, the number of incidents reported to US-CERT, and the
   number reported to law enforcement. If your agency considers another category of incident type to be high priority, include this information in category VII,
   "Other". If appropriate or necessary, include comments in the Comment area provided below
   F.2. Identify the number of systems affected by each category of incident in FY04. If appropriate or necessary, include comments in the Comment area
   provided below.
                                                                          F.1., F.2. & F.3.
                                                                                   F.1.                                                   F.2.
                                                                     Number of Incidents, by category:                 Number of systems affected, by category, on:



                                                                    F.1.a             F.1.b.         F.1.c.              F.2.a.          F.2.b.            F.2.c.
                                                                 Reported         Reported to US- Reported to       Systems with Systems without        How many
                                                                 internally           CERT            law          complete and up- complete and up-    successful
                                                                                                  enforcement        to-date C&A      to-date C&A incidents occurred
                                                                                                                                                         for known
                                                                                                                                                     vulnerabilities for
                                                                                                                                                     which a patch was
                                                                                                                                                         available?



                                                                                                                     Number of        Number of          Number of
                                                                Number of          Number of       Number of          Systems          Systems            Systems
                                                                Incidents          Incidents       Incidents          Affected         Affected           Affected
     I. Root Compromise                                                       0                0               0                  0                0                  0
     II. User Compromise                                                      1                0               0                  0                0                  0
     III. Denial of Service Attack                                            0                0               0                  0                0                  0
     IV. Website Defacement                                                   0                0               0                  0                0                  0
     V. Detection of Malicious Logic                                          0                0               0                  0                0                  0
     VI. Sucessful Virus/worm Introduction                                    1                0               0                  0                0                  0
     VII. Other                                                               2                0               0                  2                0                  0
                                                     Totals:                  4                0               0                  2                0                  0

Comments:
Item II was the result of a user account being compromised on a local workstation and the deletion of data contained on the hard drive.
Item VI was the result of the Beagle Worm infecting a limited number of workstations in the FCC environment. The vendor
delayed the release of the software patch, thus resulting in the infection.
Item VII was the result of a distruption of email services due to a high number of emails being received by the Commission and the uploading of an unauthorized web
page to an FCC external web server.
                    APPENDIX B




FY 2004 Federal Information Security Management Act
         (FISMA) Independent Evaluation




Federal Communications Commission - Office of Inspector General

   FY 2004 Federal Information Security Management Act
   (FISMA) Independent Evaluation and Risk Assessment
             (Audit Report No. 04-AUD-06-08)
                    APPENDIX C




FY 2004 Federal Information Security Management Act
          (FISMA) Independent Evaluation




Federal Communications Commission - Office of Inspector General

    FY 2003 Audit of Revenue Accounting & Management
     Information System (RAMIS) Application Controls
             (Audit Report No. 03-AUD-01-01)
                    APPENDIX D




FY 2004 Federal Information Security Management Act
          (FISMA) Independent Evaluation




Federal Communications Commission - Office of Inspector General

   FY 2003 Federal Information Security Management Act
   (FISMA) Independent Evaluation and Risk Assessment
            (Audit Report No. 03-AUD-06-09)
                    APPENDIX E




FY 2004 Federal Information Security Management Act
          (FISMA) Independent Evaluation




Federal Communications Commission - Office of Inspector General
           FY 2004 Disaster Recovery Plan Survey
             (Audit Report No. 03-AUD-12-27)
